la
APPENDIX A
Case: 20-1245 Document: 61 Page: 1 Filed: 02/03/2021
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit

ALBERTO SOLAR SOMOHANO,
Appellant
v.
THE COCA-COLA COMPANY,
Appellee
UNITED STATES,
Intervenor

2020-1245
Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board in No.
91232090.
ORDER
The appellant having failed to file an appendix required
by Federal Circuit Rule 30(a) within the time permitted by
the rules, it is

3a
APPENDIX B
Case: 20-1245 Document: 32 Page: 1 Filed: 03/23/2020
Note: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit

ALBERTO SOLER-SOMOHANO,
Appellant
WHO,
Applicant
v.
THE COCA-COLA COMPANY,
Appellee
ANDREI IANCU, Director, U.S. Patent and Trademark
Office,
Intervenor

2020-1245

Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board in No.
91232090

ON MOTION

4(a)
Case: 20-1245 Document: 32 Page: 2 Filed: 03/23/2020
Per Curiam.
ORDER
Alberto Soler-Somohano moves for summary disposition
of the above-captioned appeals. The Coca-Cola Company
(“Coca-Cola”) opposes. The Director of the United States
Patent and Trademark Office intervenes and opposes .In
Appeal No. 2019-2414, Mr. Soler-Somohano also appears
to move for leave to submit a formal opening brief to
replace his informal opening brief filed before the certified
list was received, stating that he filed the informal opening
brief while under the impression that it was “a requirement
filing for being pro-se.” Coca-Cola opposes thatmotion.
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The motions for summary disposition are denied
without prejudice to the parties raising their respective
arguments in the briefing.
(2) The motion to file a replacement formal brief in
Appeal No. 2019-2414 is granted. Any formal opening
briefs in the three above-captioned appeals is due no later
than60 days from the date of filing of this order. Coca
Cola’s and the Director’s response briefs are due no
later than 40days thereafter.
For the Court
March 23, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

5a
APPENDIX C

United States Court of Appeals
for the Federal Circuit
ALBERTO SOLAR SOMOHANO,
Appellant

v.
COCA-COLA COMPANY,
Appellee
UNITED STATES,
Intervenor
2019-2414; 2020-1245 & 2020-1406
Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board
ON MOTION
ORDER
It appears that Alberto Soler-Somohano submits a
motion to vacate and remand this appeal from the
Trademark Trial and Appeal Board in light of this court’s
recent decision in Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019). Mr. Soler-Somohano also
notices the court that he is challenging the Board’s decision
as rendered by a panel of administrative trademark judges
who were appointed in violation of the Appointments
Clause of the Constitution.

6(a)
Upon notice of the fact that “a party questions the
constitutionality of an Act of Congress in a proceeding in
which the United States ... is not a party,” the clerk of this
court must “certify that fact to the Attorney General.” Fed.
R. App. P. 44(a); see also 28 U.S.C. § 2403(a) (“In any
action ... in a court of the United States to which the
United States ... is not a party, wherein the
constitutionality of any Act of Congress affecting the
public interest is drawn in question, the court shall certify
such fact to the Attorney General, and shall permit the
United States to intervene... for argument on the question
of constitutionality.”).
Upon consideration thereof,
IT IS ORDERED THAT:
(1) Notice of Mr. Soler-Somohano’s constitutional
challenge is hereby certified to the Attorney General.
(2) The United States’ request to intervene and any
response by the United States to the motion is due no later
than February 26,2020. Any reply in support of the motion
is due no later than March 2,2020.
(3) The briefing schedule is stayed. See Fed. Cir. R.
31(c).
February 19th. ,2020
Date
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
s31
cc: United States Attorney General

7(a)
APPENDIX D

United States Court of Appeals
for the Federal Circuit
ALBERTO SOLAR SOMOHANO,
Appellant
v.
COCA-COLA COMPANY,
Appellee
UNITED STATES,
Intervenor
2019-2414; 2020-1245 & 2020-1406
Pursuant to the Federal Rule of Appellate Procedure
44(a), the Appellant ALBERTO SOLAR provides notice
that it has challenge the constitutional of inter parties
review provided by 35 USC 2/3/4 and by 15 USC 1067 and
the U.S. Constitution [7] The specific constitutional
questions at issue in this appeal is as follow:
QUESTION ONE
Whether the Federal Circuit Court of Appeals decision of
Arthrex v. Smith & Nephew, Inc, 2018-2140 (Oct. 31st,
2019), concluding that the Patent Judges selection to the
Board violated the Appointment Clause, also concludes the
same as to Trademark Judges, and if affirmative
QUESTION TWO
Whether, if the Patent Act of2002 that was signed by the
President was not the law that was passed by both houses,
does the entire Act must be invalidated as void

